                               NATIONAL SCIENCE FOUNDATION
                                    4201 Wilson Boulevard
                                  ARLINGTON, VIRGINIA 22230




    OFFICE OF
INSPECTOR GENERAL



MEMORANDUM


Date:          June 30, 2009

To:            Mary F. Santonastasso
               Division Director, Division of Institution and Award Support
               (BFA/DIAS)

               Karen Tiplady
               Division Director, Division of Grants and Agreements (BFA/DGA)

From:          Michael R. Kuklok
               Senior Audit Manager

Subject:       NSF OIG Report Number 09-1-009
               Audit of Effort Reporting System, Georgia Institute of Technology

        Attached is the final report prepared by McBride Lock and Associates, an independent
public accounting firm, on the audit of the payroll distribution and effort reporting system used
by the Georgia Institute of Technology to support salary and wages charged to NSF grants. The
University’s comments to the draft report have been summarized after the recommendations for
each audit finding and our response has been provided to these comments. The full text of the
University’s comments is included as Appendix A to the audit report.

        Our audit disclosed that Georgia Tech generally has a well established labor effort
reporting system with the exception of internal controls over prospective workload allocation
changes (prospective changes), labor cost transfers, uncharged but committed labor effort and
NSF reimbursement limitations to principal investigators. However, the lack of adequate
controls over prospective changes and labor cost transfers serves to lessen the reliability of the
labor effort reporting process at Georgia Tech. Insufficient controls over changes to the data
underlying the effort reports could allow improper charges to Federal awards to remain
undetected, thus jeopardizing the reliability of not just effort reports, but also Federal award
financial reports. This is critical since labor charges to NSF awards totaled $16 million in FY
2007. The amount of labor effort charges to other Federal agencies by Georgia Tech, totaled $49
million.
        We consider Georgia Tech’s internal control procedural weaknesses identified in the
audit findings to be significant. Accordingly, we request that your office work with Georgia
Tech and the cognizant audit agency, the Office of Naval Research (ONR), to develop a written
Corrective Action Plan detailing specific actions taken and/or planned to address each audit
recommendation. Milestone dates should be provided for corrective actions not yet completed.

        To help ensure the recommendations are resolved within six months of issuance of the
audit report pursuant to Office of Management and Budget Circular A-50, please coordinate the
development of the Corrective Action Plan with our office during the resolution period. Each
audit recommendation should not be closed until NSF, in coordination with ONR, determines
that Georgia Tech has adequately addressed the recommendation and proposed corrective actions
have been satisfactorily implemented. Please note that we have sent a copy of the audit report
under separate cover to xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.

OIG Oversight of Audit

To fulfill our responsibilities under Generally Accepted Government Auditing Standards, the
Office of Inspector General:

      •   Provided a detailed audit program for the agreed upon procedures review and ensured
          McBride Lock and Associates approach and planning for the audit was appropriate;
      •   Evaluated the qualifications and independence of the auditors;
      •   Monitored progress of the audit at key points by accompanying McBride Lock auditors
          on-site at the grantee;
      •   Coordinated periodic meetings with McBride Lock and OIG management to discuss audit
          progress, findings, and recommendations;
      •   Reviewed the audit report, prepared by McBride Lock, to ensure compliance with
          Generally Accepted Government Auditing Standards and the NSF Audit Program; and
      •   Coordinated issuance of the audit report.

McBride Lock and Associates is responsible for the attached audit report on Georgia Tech’s
payroll distribution and effort reporting system and the conclusions expressed in the audit report.
The NSF OIG does not express an opinion on the audit report’s conclusions.

      If you have any questions, please feel free to call me at 703-292-4975 or Mark Kim at
703-292-8531.

Enclosure

cc:       Gilbert Tran, Technical Manager, Office of Management and Budget
          Thomas Cooley, Director and Chief Financial Officer, BFA/OAD
          Alexander Wynnyk, Branch Chief, BFA/DIAS
          Charles Zeigler, Special Assistant, BFA/DIA




                                                2
   Audit of Payroll Distribution System

      Georgia Institute of Technology
             Atlanta, Georgia

For the Period July 1, 2006 to June 30, 2007




       National Science Foundation
       Office of Inspector General


              June 30, 2009
            NSF OIG 09-1-009




             Audit Performed by:
         McBride Lock & Associates
         Certified Public Accountants
               1111 Main Street
           Kansas City, Mo. 64105




                        
                  

                  

                  

                  

                  

                  

                  

                  

                  

                  

This page intentionally left blank. 

                  

                  




                  
                                    EXECUTIVE SUMMARY

        This audit report provides the results of our review of the payroll distribution and labor
effort reporting system used by the Georgia Institute of Technology (Georgia Tech) to validate
salaries and wages charged to National Science Foundation (NSF) grants. In Fiscal Year 2007,
Georgia Tech’s charges to federal sponsored projects totaled approximately $347 million, of
which $61 million, or about 18 percent, were charges to NSF. Of this amount, more than $16
million, or 26 percent, related to labor costs directly charged to NSF awards. This audit is one of a
series of Office of Inspector General’s (OIG) reviews of the labor effort distribution systems being
conducted at NSF’s top-funded universities in order to assess the adequacy of internal controls to
ensure salaries and wages claimed on NSF grants are properly managed, accounted for, and
monitored.

        Our audit disclosed that Georgia Tech generally has a well established labor effort
reporting system with the exception of internal controls over prospective workload allocation
changes (prospective changes), labor cost transfers, uncharged but committed labor effort and NSF
reimbursement limitations to principal investigators (PI). However, the lack of adequate controls
over prospective changes and labor cost transfers serves to lessen the reliability of the labor effort
reporting process at Georgia Tech. For example:

        • Policies and practices allow prospective changes to labor effort allocations to be made
          without documentation of justification or independent approval.
        • Similarly, cost transfers within 60 days of posting to the payroll system can be made
          without documentation of justification or approval. Those beyond 60 days require
          justification. However, many justifications were inadequate, with little or no follow-up
          to ensure they were valid.
        • Departmental financial managers had the ability, by independently processing labor
          allocation adjustments and cost transfers, to make changes to the labor effort system
          without adequate checks and balances.
        • The University has not established policies and procedures to provide for accurate
          reporting of uncharged but committed labor effort requested for the PI, and to ensure
          compliance with NSF’s rule limiting PI’s summer salary to two months.

        An effort reporting system is compromised by undocumented, potentially unauthorized or
improperly recorded changes. Insufficient controls over changes to the data underlying the effort
reports could allow improper charges to Federal awards to remain undetected, thus jeopardizing
the reliability of not just effort reports, but also Federal award financial reports. This is critical
since labor charges to NSF awards totaled $16 million in FY 2007. The amount of labor effort
charges to other Federal agencies by Georgia Tech, totaled $49 million.

        Georgia Tech officials believe its PIs and departmental finance managers have sufficient
knowledge and training to be vested with sole approver authority over prospective workload
allocation changes and timely cost transfers. However, Georgia Tech had not implemented an
adequate internal control structure to prevent, detect and mitigate noncompliance with Federal and
NSF grant requirements pertaining to labor cost charges to sponsored awards. Similarly, internal



                                                   i 
controls were not adequate to ensure compliance with uncharged but committed PI effort
obligations and NSF’s two months’ salary limitations.

         To address the control weaknesses, we made recommendations to improve Georgia Tech’s
internal control structure for effort reporting management and oversight. The recommendations
were primarily directed toward enhancing the University’s oversight of the labor effort reporting
system by (i) addressing policies concerning these issues, (ii) requiring documentation of
justification and approval of changes to monthly workload allocation reports and cost transfers,
(iii) requiring follow-up on inadequately justified labor cost transfers, and (iv) ensuring proper
training and oversight of these activities.

       A draft audit report requesting comments on the findings and recommendations was issued
to Georgia Tech. The University stated that they have revised or plan to revise various policies and
procedures, enhance and thereby increase the effectiveness of the monthly electronic workload
assignment system, expand and update their training curriculum, and review manpower
requirements to support stronger monitoring efforts.

        Georgia Tech’s responses, once implemented, should address our audit recommendations.
NSF should work with the cognizant audit agency and/or Georgia Tech to ensure the University
develops an acceptable corrective action plan to resolve each audit recommendation. We have
summarized Georgia Tech’s responses and provided our comments after each recommendation in
the report. We also included Georgia Tech’s response to our draft report in its entirety as
Appendix A.




                                                 ii 
                                                 Table of Contents

EXECUTIVE SUMMARY........................................................................................................i

INTRODUCTION
Background .……………………………………………………………………...…..………....1
Audit Objectives, Scope and Methodology ………………………….………….….…….…….2

FINDINGS AND RECOMMENDATIONS
   1. Internal Controls Over Prospective Workload Allocation Changes and Labor Cost
      Transfers are Inadequate……………………………………….……..….……………..5

    2. University’s Policies and Procedures Do Not Address Certain Federal and
       NSF Grant Requirements …….………………………………….……………….........13


APPENDIX

    Appendix A – Georgia Institute of Technology’s Response to the Draft Audit Report…..18


ACRONYMS
    NSF                       National Science Foundation
    OIG                       Office of Inspector General
    OMB                       U. S. Office of Management and Budget
    PI                        Principal Investigator
    OSP                       Office of Sponsored Projects
    G&C                       Office of Grants & Contracts Accounting
    Georgia Tech              Georgia Institute of Technology
    ASR                       Annual Statement on the Reasonableness of Salary Charges
    EWAF                      Employee Workload Allocation Form




 
                                       INTRODUCTION


Background

        Approximately one-third of the National Science Foundation (NSF) award funds are
provided to universities for salary and wages, amounting to about $1.3 billion annually. Also, in
recent years, there have been several civil settlements involving overcharges of labor costs to
Federal grants at several major universities, amounting to millions of dollars, including some
funded by NSF. Because of these legal actions and the material amounts of labor costs paid from
NSF awards, the Office of Inspector General (OIG) is undertaking a series of reviews of the
labor effort distribution systems at NSF’s top-funded universities in order to assess the adequacy
of internal controls to ensure salary and wage costs claimed on NSF grants are properly
managed, accounted for, and monitored. This audit, involving the Georgia Institute of
Technology (Georgia Tech or the University) is one of the planned reviews of such labor effort
distribution systems.

        Georgia Tech is a major research institution located in Atlanta, Georgia. As a unit of the
University System of Georgia, the mission of Georgia Tech is to provide the State of Georgia
with the scientific and technological base, innovation, and workforce it needs to shape a
prosperous and sustainable future and quality of life for its citizens. It has top-ranked programs
in the sciences, technology, engineering, computing, architecture and related areas. Georgia
Tech’s campus occupies 400 acres and enrolls approximately 12,600 undergraduate and 6,200
graduate students. The University employs over 5,300 staff, including over 2,500 academic and
research faculty. Georgia Tech derives the majority of its funding from sponsored research
projects, student tuition, and state subsidies. In FY 2007, Federal expenditures totaled $347
million, of which $61 million was funded by NSF.

        Georgia Tech’s management and oversight of Federal grant programs is shared between
the Office of Sponsored Programs (OSP) and the Office of Grants & Contracts Accounting
(G&C). OSP is primarily responsible for pre-award and non-financial post-award grant
functions. G&C is responsible for administering the post-award accounting and reporting
functions and ensuring that Georgia Tech complies with Federal grant regulations and
sponsoring agency requirements. As such, G&C develops Georgia Tech’s policies and
procedures for Federal grants management and is charged with implementing appropriate
training programs.

        Within each Academic Department, Principal Investigators (PIs) and Business
Administrators are tasked with the management and oversight of sponsored projects to ensure
compliance with Federal and University policies and procedures. The Business Administrators
typically assist and advise faculty members and are responsible for ensuring that awards and
their budgets are created accurately in the University’s financial systems, award expenditures are
monitored on a monthly basis, and labor effort certifications are reviewed and approved by the
employee or PI for these projects. Specifically, PIs, in conjunction with the Business
Administrators, have primary responsibility for all aspects of the sponsored projects, including


                                                1
approving of all charges and ensuring that the research is conducted in accordance with the
award terms and conditions.

       Objectives, Scope, and Methodology

        Audit Objectives: Our audit objectives were to: (a) evaluate whether Georgia Tech’s
internal controls are adequate to properly manage, account for, monitor, and report salary and
wage costs on NSF grants in accordance with OMB and NSF grant requirements and (b)
determine if salaries and wages charged to NSF awards are allowable, allocable, and reasonable
in accordance with Federal cost principles and NSF award terms and conditions.

        Scope and Methodology: The audit effort focused on Georgia Tech’s effort reporting
system which is comprised of monthly workload allocation reports (EWAFs) that are
summarized into an Annual Statement of Reasonableness (ASR). Our audit procedures included
the review of internal controls for ensuring that labor costs charged to NSF (i) were actually
incurred, (ii) benefited NSF awards, (iii) were accurately and timely recorded and charged to
NSF, and (iv) were for allowable and allocable-type activities as required by Federal and NSF
requirements. In addition, the level of PI effort pledged in grant proposals and award documents
was evaluated in relation to the effort actually contributed by the faculty member to accomplish
award objectives.

        To address each of these control objectives, the NSF OIG engaged a statistician to
provide expert advice in selecting a statistical sample of employee salary records for testing. The
use of statistical tools and methodology is designed to facilitate projecting the audit results to the
entire population of universities to be included in the planned reviews of payroll distribution
systems nationwide. However, due to the small statistical sample size of 30 employees tested,
we are not able to make any projections to the total Georgia Tech population of labor costs
charged to NSF grants. Specifically, the FY 2007 salary and wage costs for the 30 sample
employees tested amounted to $427,958. Our statistical sample was derived from a total
population of 1,356 Georgia Tech employees, who charged salaries of $15,939,222 to NSF
grants during FY 2007. This population excluded (a) any employee with total salary costs of
$100 or less and (b) all salary charges for undergraduate students. These amounts were excluded
because of their small dollar value and the difficulty in locating undergraduate students for
personal interviews.

        We compared Georgia Tech’s policies and procedures to Federal and NSF requirements
for allocating labor costs to Federal awards, and we interviewed Georgia Tech personnel to gain
an understanding of the controls in place to ensure salary and wages charged to NSF awards
were reasonable and allowable. For each statistically selected salary record, we obtained the
following documentation to determine whether labor costs Georgia Tech charged to NSF awards
met the control objectives:

   •   ASR effort reports or time records documenting 100 percent of each employee’s
       compensation allocated to sponsored and non-sponsored projects for each reporting
       period.




                                                  2 
   •   Appointment letters or other documents supporting the approved annual salary for
       employees.
   •   Payroll expense distribution reports detailing the actual salary and wages charged to
       sponsored projects and other activities for each employee during each reporting period.
   •   Award documents to determine whether the grant had any terms and conditions that
       would affect allowable labor charges to the award.

      To ensure that salary and wage costs charged to NSF awards were incurred and benefited
NSF awards, we corroborated the information on ASR reports and monthly time records by
interviewing the 30 sampled employees. We inquired whether (a) the labor charges documented
were actually incurred on projects and activities, (b) the approximate percentage of effort
actually worked on each sponsored project and/or activity was reasonably consistent with NSF
labor charges, and (c) the type of work performed on NSF projects was generally consistent with
the scope of the awards. We also interviewed selected administrative grants managers in
Academic Departments to determine procedures for processing and monitoring employee salary
charges to Federal grants. Additionally, we interviewed selected PIs to determine the number of
projects and personnel they were responsible for and their processes for verifying work
performance prior to approving and signing ASR effort reports.

      To confirm that faculty effort pledged in grant proposals was actually contributed to
accomplish grant objectives, we reviewed processes for reporting and tracking PI effort and
whether the associated salary costs were properly included in the organized research base for
computation of the University’s indirect cost rate. For each faculty member in our sample, we
reviewed award documents for NSF grants that the faculty member worked on during FY 2007
to determine the effort pledged on each project and compared this proposed effort to the
approximate percentage of actual effort worked on the project. In addition, we determined how
Georgia Tech tracked and documented PI effort on sponsored projects when no faculty salary
support was requested or reimbursed by the Federal Government.

      To determine whether labor costs were accurately recorded and charged to NSF, we
compared the amounts in appointment letters or other documentation supporting salaries and
wages paid to the amounts recorded in the Georgia Tech’s payroll expense distribution reports
for each individual in our selected sample. We recalculated salary and wage costs charged to
NSF projects by using the salary shown on supporting documentation and apportioning it by the
period of time represented on the ASRs or monthly time records. We also reviewed labor
transactions to determine whether Georgia Tech followed Federal, NSF, and University
requirements applicable to charging labor costs to NSF projects.

      To evaluate whether Georgia Tech officials approved and signed ASRs in a timely manner,
we compared the date the ASR reporting period ended to the date the reports were approved and
signed. Timeliness was tested against Georgia Tech’s internal policy requiring that all ASRs
pertaining to the year ended June 30 be certified and returned by the following August 31.

     Finally, we reviewed prior audit reports on Georgia Tech’s Federal grants management
program performed by the University’s internal auditors as well as prior audit reports and
working papers prepared by the University’s independent A-133 auditors to determine whether


                                               3 
there were audit findings and recommendations on the labor effort reporting system.
Specifically, we interviewed Internal Audit staff and reviewed the working papers, as needed, to
gain an understanding of the scope and procedures used in their audits of Georgia Tech’s payroll
distribution reporting system and/or University management of labor costs charged to Federal
projects. Review of A-133 audit reports and working papers was performed to ascertain the
actual audit scope and the audit procedures used to support any findings of noncompliance or
internal control weaknesses relating to payroll distribution or effort reporting.

We were engaged to conduct the audit by the NSF OIG. We performed our on-site audit work at
the Georgia Tech campus during a two week period in November 2007 and an additional two
week period in January 2008. The audit was conducted in accordance with the Comptroller
General’s Government Auditing Standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.  




                                                 4 
                            FINDINGS AND RECOMMENDATIONS


1. Internal Controls Over Prospective Workload Allocation Changes and Labor Cost
Transfers are Inadequate

        Georgia Tech did not establish an adequate system of internal controls for the proper
documentation and approval of prospective changes and labor cost transfers. Further,
department finance managers have the ability to alter workload allocations and to initiate cost
transfers without independent approval, monitoring or notification to those responsible for the
award, the Principal Investigators (PI), unless the PI performs the optional review of monthly
project cost reports. Georgia Tech’s policies allow prospective changes to be processed without
documentation of justification or independent approval. Cost transfers only required written
justification if initiated beyond 60 days of the posted transaction. Even so, when justifications
for cost transfers were required many were not adequate. These control deficiencies do not
adhere to Federal requirements for the proper authorization and documentation of these types of
transactions. These weaknesses may serve to undermine the reliability of Georgia Tech’s entire
effort reporting system. Consequently, to the extent that improper workload allocation changes
and labor cost transfers affected Georgia Tech’s labor charges to NSF grants, we could not
determine the reliability of such labor charges. Total labor charges to NSF grants approximated
$16 million in FY 2007, and total labor charges to other Federal agencies were approximately
$49 million. The weakness in controls resulted from Georgia Tech’s position that prospective
and timely changes to payroll allocations should be the prerogative of the PI, without
independent review.

Background on Prospective Workload Allocation Changes and Labor Cost Transfers

       The initial allocation of workload distribution, or appointment summary, is developed at
the time an award is granted and is integrated with the payroll system. Therefore, the
appointment summary mandates how an employee’s effort is funded. Appointment summaries
and planned award staffing, as set forth in the grant proposal, are subject to review by the
Department Chair. The Department is then responsible for ensuring that charges to funding
sources for each employee’s time and effort properly reflect actual effort expended. This
responsibility is ultimately delegated to the PI over the award since the PI has first-hand
knowledge of planned and actual grant activities.

        Prospective changes and cost transfers shift encumbrances and costs, respectively, to or
from NSF and other Federal awards. The distinction between the two transactions rests with the
timing of the transaction. Prospective changes are made to the pre-established allocation plan
and are initiated prior to the labor cost posting to the general ledger and the payroll system.
These changes affect future labor costs planned for allocation to NSF and other Federally-funded
awards. Cost transfers are changes initiated to retroactively change costs that have already
posted to the payroll and labor effort reporting system. Cost transfers, unlike prospective
changes, only impact the payroll and effort reporting system one time. Since a cost transfer
makes a retroactive change to the general ledger, where the labor charges were previously


                                                5 
approved, it poses a higher risk and therefore requires stricter scrutiny to ensure that the transfer
is appropriate.

OMB Circulars and Georgia Tech’s Policies Applicable to Prospective Changes and Cost
Transfers

        Federal regulations require documentation to support charges to Federal awards.
Documentation provides an audit trail and the means to support the propriety of transactions, and
therefore, is crucial to effective oversight and monitoring of award charges by an independent
party. OMB Circular A-110, C.21.b.(7) states that “Recipients’ financial management systems
shall provide for ……accounting records including cost accounting records that are supported by
source documentation.” Also OMB Circular A-21, C.4.d.(1) states that “The recipient institution
is responsible for ensuring that costs charged to a sponsored agreement are allowable, allocable
and reasonable under these cost principles.”

        With respect to prospective changes, OMB Circular A-21, J.10.c.(1)(d) requires that
“Whenever it is apparent that a significant change in work activity which is directly or indirectly
charged to sponsored agreements will occur or has occurred, the change will be documented over
the signature of a responsible official and entered into the system.” Regarding cost transfers, the
University’s own policy reflects recognition of the importance of monitoring cost transfers
resulting from retroactive workload changes. The policy states the following:

                      “Changes in an employee's workload distribution for future periods
              are generally acceptable, but any retroactive change in payroll distribution
              must be subjected to the closest scrutiny. Such a change would indicate a
              contradiction of previous monitoring reviews and, for that reason, should
              be limited to the correction of errors. If a retroactive change should be
              made, it must be supported by a full explanation and must be approved in
              accordance with written institutional policy. Specific reasons for the
              transfer must be provided in the explanation.”1

        In addition to the above criteria from OMB Circulars A-21 and A-110 and University’s
policies, OMB Circular A-21, C.4.d(2) requires adequate policies to ensure proper segregation of
duties over key processes. It specifically states that “The institution’s financial management
system shall ensure that no one person has complete control over all aspects of a financial
transaction.”




                                                            
1
 This policy is inconsistent with Section 3.6 of Georgia Tech’s Grants & Contracts Policies & Procedures Manual
which does not require documentation for “timely” labor cost transfers, and states “a salary distribution change
made within 60 days after the posting date of the payroll transaction will be considered timely. For example, a salary
distribution change for charges incurred on July 31 can be processed without additional supporting documentation
until September 30.



                                                               6 
Prospective Changes and Labor Cost Transfers are Processed Without Documentation of
Justification and Approval

A. Prospective Changes

        Georgia Tech did not establish the controls to properly document the justification of
prospective changes to planned workload allocations established for accurately charging future
labor efforts to NSF and Federal awards. Furthermore, all processing is implemented by
departmental financial managers. Georgia Tech has implemented an internal control procedure
which involves distributing monthly employee workload allocation forms, known as EWAFs, to
employees assigned to sponsored projects, requiring each employee to review the workload
allocations and to notify his/her departmental financial manager or supervisor of any required
changes. However, the University does not require formal documentation of justification or
approval before the change is accepted and entered into the labor effort and accounting systems
by departmental financial managers. Managers stated they accepted both verbal and e-mail
requests for change. However, there was no policy to retain e-mails to support any requested
changes. Further, departmental financial managers independently enter prospective changes into
the effort reporting system. Monthly project cost reports can be accessed on-line by the PIs and
provide a control that could alert the PI to changes made in the effort reporting system.
However, this access by the PI is optional and, in the event that the financial manager performs
the monthly review of project costs on behalf of the PI, this alert may not occur. No other
documents or reports are required to be provided to PIs to validate the changes made. Therefore,
there is no assurance that the PI or other responsible official approved or was aware of the
requested change.

        To illustrate this weakness, in our sample of 30 employees, we found one instance in
which a PI inappropriately added a graduate student’s labor allocation, and thus payroll charges,
to a NSF award although the PI knew that this graduate student was not assigned to work on the
NSF award. The PI also certified the effort reports for this student. The PI stated that another
graduate student who worked on this NSF award had been inadvertently charged to another
award, and to correct the accounting error, the PI charged labor effort of another graduate student
(our sample employee) who was working on another (non-NSF) award, to this NSF award.
During our interview with the subject graduate student, XX stated that XX was not familiar with
the award and was not aware that it was listed on her effort report. By correcting the accounting
entry in this manner, the PI incorrectly certified the effort report as being accurate, although she
knew that it was incorrect. Since this was a prospective workload change that modifies future
labor effort allocations, this improper allocation of labor costs to the awards could have been
incorrect throughout the life of the project.

       Further, a Georgia Tech Internal Audit Report analyzed workload changes over a nine-
month period in 2007, and determined that there were approximately 15,000 changes, which
represent 3,691 transactions. Similar statistics have been reported by Internal Audit since 2004,
however, the matter was not identified as an internal control weakness and thus no
recommendations were made to effect change in the internal control environment. However, the
propriety of changes to payroll allocations is key to the reliability of labor effort charging and



                                                 7 
reporting on NSF and other federal awards.




                                             8 
B.      Cost Transfers

         In addition, Georgia Tech’s current policy does not provide for an adequate system of
internal controls over the cost transfer process. Specifically, the University permitted the
processing of labor cost transfers without documentation of justification or approval if such
transfers were initiated within 60 days of posting to the payroll. For cost transfers initiated more
than 60 days after the effective date, the University lacked adequate procedures to ensure that
transfers with “inadequate” justifications were sufficiently justified prior to being processed.
Georgia Tech had two conflicting sections in the same policy concerning documenting cost
transfers. The more stringent requirement required full documentation and justification for any
retroactive change in payroll distribution (cost transfer). However, the University followed the
less stringent 60 day policy. Cost transfers occurring more than 150 days (revised in 2008 to 120
days) after the payroll period require additional documented approvals. However, this
requirement has been interpreted to allow for the portion of the labor costs originally charged
prior to the 150 day cutoff to be transferred without further approval, even as the remainder of
the transfer is held up pending appropriate approval as required by policy.

        Labor cost transfers impacted 15 of the 30 sampled employees, representing $427,958 of
salary costs, excluding fringe benefits, in FY 2007. The net effect of these transfers was to
increase salary costs charged to the sampled NSF awards by eight percent or $33,690. This net
increase was comprised of cost transfers increasing NSF-funded salary costs by $61,487, offset
by transfers reducing salary costs in the amount of $27,797. Because a justification for cost
transfers initiated within 60 days of incurring the cost is neither documented nor retained, we
could not evaluate the propriety of such labor cost transfers processed during Fiscal Year 2007,
and whether the net increase to NSF of $33,690 was appropriate.

        Additionally, when cost transfers were initiated after 60 days, the University processed
cost transfers regardless of whether the justifications provided were adequate. For example, we
found notations such as “Just received new information from PI about accounts” or “Moving
salary that was posted to Project A (project number redacted), which start date is 02/01/07.” For
three of the four sample transfers that were initiated more than 60 days after their effective date,
we found inadequate documentation to support the purpose and appropriateness of the cost
transfers. When we inquired about these poorly documented transfer requests, G&C personnel
informed us that they did not possess other documents that further clarified or justified these
transfers.

        Similarly, a Georgia Tech internal audit also reported that 80.5 percent of all transfers
covering a nine-month period in Fiscal Year 2007 were initiated within 60 days and therefore,
did not require documentation or justification. These cost transfers involved NSF-related
transfers in Fiscal Year 2007 with a dollar impact of approximately $607,000. Because of the
lack of documentation of justification or approval to support the majority of labor cost transfers,
the reasonableness of overall labor cost transfers affecting NSF awards was not readily
determinable.




                                                 9 
        Georgia Tech’s internal audit reports identified similar unacceptable explanations related
to cost transfers. According to the Georgia Tech Internal Audit Department, the percentage of
“unacceptable” justifications has dropped from 67.4 percent in 2004 to 21.8 percent in Fiscal
Year 2007. Fiscal Year 2007 represents only the three quarters from October 1, 2006 through
June 30, 2007. However, even with the progress that appears to have been made, the percentages
of unacceptable justifications that have been identified since 2004 remains significant. The
following table, extracted in part from the above-referenced Internal Audit report, provides an
indication of the extent of the “unacceptable justification” issue.
 

                                             Percentage of Changes
                           Fiscal                  > 60 Days
                           Year                 “Unacceptable”
                           2004                       67.4
                           2005                       58.0
                           2006                       39.2
                           2007                       21.8

Increased Risk of Unreliable Effort Reporting and Misallocation of Labor Costs to NSF Grants

        The lack of internal controls over prospective workload changes and cost transfers
undermines other effective controls the University has established over the effort reporting
process. Effort reporting is the mandated method of certifying to the granting agencies that the
effort charged to each award has actually been expended. It is intended to provide an additional
internal control in the form of the historical review of effort and payroll charges for all activities
by someone with first-hand knowledge of the actual effort expended. An effort reporting system
is compromised by undocumented, potentially unauthorized or improperly recorded changes.
Insufficient controls over changes to the data underlying the effort reports could allow improper
charges to Federal awards to remain undetected, thus jeopardizing the reliability of not just effort
reports, but also Federal award financial reports. These weaknesses in internal controls diminish
the reliability of labor charges to NSF awards, which totaled $16 million in FY 2007. Further,
the reliability of an estimated $145 million labor charges to other Federal agencies is also
uncertain. Although the total labor charges to other Federal agencies were not readily available,
we estimated these charges by applying the same ratio of NSF labor charges to total NSF awards
to the total of other Federal agency awards.

Factors Contributing to the Control Weakness over Prospective Changes and Cost Transfers

         Georgia Tech’s management views the PI as an appropriate decision-maker with respect
to their sponsored awards, and they do not consider documentation or monitoring of the PI’s
actions with respect to prospective changes to be necessary. We were informed that, because PIs
have authority to determine staffing on their awards, it is reasonable that they have authority to
request and approve changes to staffing in the form of prospective changes. Although we do not
disagree with management’s view, this position does not recognize the possibility that the PI
may be unaware of the workload allocation changes to the PI’s award that he/she is charged with
monitoring since no notification is sent to the PIs or any other independent party when changes
are made. Rather, the University depends on the PI to access his on-line monthly project cost


                                                 10 
reports to identify the effects of workload allocation changes after the changes have resulted in
payroll charges to the sponsored award. Additional reliance is placed on the EWAFs and
certified ASRs for each employee. The University’s position does not recognize the essential
role that additional controls and documentation play in providing support required for effective
monitoring by an independent party and to justify and explain the transaction in the event of
future questions. Management’s views and actions may have limited the University from
establishing the following control elements which we believe are required for an effective
control environment.

       •   Clear and accurate guidance over prospective workload changes and cost transfers
           regarding the requirements for conformance with OMB requirements including
           proper documentation of justification or approval.

        • Separation of duties with respect to initiating, processing, and reviewing transactions
          entered into the Salary Planning and Distribution (SPD) system. The departmental
          financial managers have the ability to make prospective workload changes and cost
          transfers within 60 days of the payroll posting date without documentation of
          justification or approval. Although we did not identify any improper entries, the
          overall weakness centering on lack of documentation would make identification
          difficult. Thus the risk is high that errors could occur without detection.

       •   Consistent policy statements and procedural guidance over the documentation
           required for cost transfers. Within the same policy, guidance allows transfers
           initiated within 60 days of the posting date to be processed without documentation of
           justification and review by a second party, even though other guidance in the same
           policy states that retroactive changes “must be supported by a full explanation and
           must be approved in accordance with written institutional policy.” As noted, the
           University’s practices are consistent with the less demanding policy.

        • Sufficient staffing to ensure justifications for cost transfers are adequate before the
          transfer is posted to the accounting system or proper follow-up is conducted if a
          justification is not deemed adequate. The University may not have sufficient staffing
          in this area. For example, only one staff member in Grants and Contracts (G&C) is
          assigned responsibility to review all cost transfers initiated more than 60 days after
          the effective date by reviewing a data file containing a large volume (thousands) of
          transfers. If the G&C employee identifies a cost transfer lacking adequate
          justification, this event is added to a record of other such transfers for subsequent
          compilation of notices to be sent to the initiating department. However, G&C
          performs no additional follow-up, and the improperly justified transfer remains in the
          accounting system regardless of whether a proper justification is provided as it has
          already been processed. Although monthly summary statistics identifying
          inadequately justified current year transfers (greater than 60 days) were compiled and
          sent to the respective Financial Managers and Department Chairs, there were no
          requirements for departments to provide more comprehensive justifications.
          Considering the percentage of unacceptable justifications, the staffing may not be
          sufficient to allow proper identification and follow-up on inadequate justifications.


                                                11 
       • Effective oversight by Georgia Tech central administration over the decentralized
         research departments at the University. Although the University delegated the
         responsibility for the management of their Federal awards to the departmental level,
         the University is still responsible for the overall compliance with Federal
         requirements. However, Georgia Tech has not developed adequate oversight
         processes for the review of prospective workload changes and cost transfers even
         though the issue of inadequate cost transfer justifications has been identified with
         respect to the area of cost transfers since 2004 by Georgia Tech’s own internal audit
         function.

Recommendations:

       We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to require Georgia Tech to implement the following recommendations:

1.1      Update the University’s policies to provide that all prospective changes to the monthly
       workload/payroll distribution systems and labor cost transfers require written justification
       at an appropriate level of detail and approval/confirmation by the PI to allow for an
       effective independent review.

       Georgia Tech Response

       The University stated they will implement the following corrective actions:

           1. Update policies to provide that all labor cost transfers to sponsored projects
              require written justification at an appropriate level of detail. This information will
              be reported to the Office of Grants and Contracts Accounting and appropriately
              monitored. Written justification at an appropriate level of detail and additional
              central review and authorization approvals are currently required for all prior year
              cost transfers and cost transfers to sponsored projects beyond 120 days of the
              original expense posting.

           2. Enhance the monthly electronic workload assignment reporting system (EWAF)
              by including a notification regarding changes made to workload allocations since
              the last report and appropriate action steps when reported changes are not initiated
              promptly by departmental finance officers.

           3. Develop a web-based training program with testing and confirmation capabilities
              to ensure that training participants understand the Plan Confirmation System and
              acknowledge their individual responsibilities for reviewing, confirming or
              initiating timely changes to workload allocations, including future period
              allocations. This on-line training will be offered in addition to Plan Confirmation
              System Booklets (with Acknowledgement Forms) that are now used.




                                                12 
      Auditors’ Comments

      Georgia Tech’s response met the intent of the recommendation.

1.2     Establish procedures to ensure departmental financial managers advise PIs and G&C of
      all prospective changes and cost transfers, including explanation, to provide for
      independent monitoring of changes to labor effort reporting.

      Georgia Tech Response

      The University stated they will ensure that labor cost transfers, including explanations,
      are reported to Grants and Contracts Accounting and are appropriately monitored. The
      University also stated that they will develop procedures and centralized reporting systems
      to permit timely PI review and approval/confirmation of all charges posted to his/her
      sponsored projects.

      Auditors’ Comments

      Georgia Tech’s response met the intent of the recommendation.

1.3     Require Georgia Tech to develop and implement oversight procedures for the periodic
      review of departmental compliance with University and OMB requirements regarding the
      management of Federal awards. These procedures should include interviewing PIs to
      ensure they understand and correctly fulfill their roles and responsibilities.

      Georgia Tech Response

      The University stated they will enhance existing oversight procedures and/or establish
      additional oversight procedures for the periodic review of departmental compliance with
      Georgia Tech and OMB requirements regarding the management of Federal awards.

      Auditors’ Comments

      Georgia Tech’s response met the intent of the recommendation.

1.4     Update the guidance on labor cost transfer requests to ensure consistency within its own
      policies and with OMB requirements for justification and documentation.

      Georgia Tech Response

      The University concurred with the recommendation and stated they will update guidance
      on labor cost transfer requests to ensure consistency within Georgia Tech policies and
      with OMB requirements.




                                              13 
       Auditors’ Comments

       Georgia Tech’s response met the intent of the recommendation.

1.5      Review the manpower requirements needed to effectively oversee the prospective
       workload change and cost transfer justifications and the related follow-up processes.
       This review should be conducted after changes are made for the recommendations above
       as these may increase the effectiveness of labor effort reporting.

       Georgia Tech Response

       The University concurred with the recommendation and stated they will review
       manpower requirements needed to effectively oversee cost transfer justifications, related
       follow-up processes, and overall compliance.

       Auditors’ Comments

       Georgia Tech’s response met the intent of the recommendation.

1.6      Incorporate the changes set forth in recommendations 1.1 and 1.2 into Georgia Tech’s
       effort reporting training and promptly communicate the changes to everyone working on
       sponsored projects.

       Georgia Tech Response

       The University stated they will incorporate all related changes into the Plan Confirmation
       System training and promptly communicate changes to employees working on sponsored
       projects.

       Auditors’ Comments

       Georgia Tech’s response met the intent of the recommendation.


2. University’s Policies and Procedures Do Not Address Certain Federal and NSF Grant
Requirements

        The Federal government provides various regulations and guidance to provide adequate
direction to universities over the effort reporting process. In addition, NSF provides more
specific guidance with respect to NSF awards. All grant recipients receiving Federal funds are
required to abide by all Federal requirements and agency-specific grant requirements. Our audit
revealed that Georgia Tech lacked policies and procedures to comply with a Federal grant
requirement to account for voluntary committed cost sharing arising from awards for which no
PI labor reimbursement was requested. We also found that Georgia Tech’s policy did not
incorporate NSF’s requirement that limits PI summer salary to two months. While we noted no


                                               14 
instances of noncompliance in these two areas, the absence of definitive policies weakens the
system of internal controls over faculty effort reporting, and reduces assurance that Georgia
Tech’s PIs are charging no more than two summer month’s salary to NSF awards.

A. Internal Control Improvements Needed Over Voluntary Committed Cost Sharing

OMB Guidance Related to Internal Controls and Voluntary Committed Cost Share

        A January 2001 OMB Clarification Memorandum2 provides guidance for verification
requirements for PI effort on sponsored projects. The Memorandum states that, when sponsored
projects do not include any faculty (or senior researcher) effort, paid or unpaid, an estimated
amount must be computed and included in the University’s organized research base used for
computing its negotiated Federal indirect cost rate. Specifically, the OMB Memorandum
clarifies that faculty effort on organized research includes: (i) PI salary and wages directly
charged to sponsored projects, (ii) PI effort required as mandatory cost sharing, and (iii) PI effort
pledged and quantified as “voluntary committed cost sharing” in a proposal. Voluntary
committed cost sharing is defined as effort not required by the sponsor, but proposed in the
sponsored project narrative and/or budget with no corresponding funding requested.

Georgia Tech’s Policy Does Not Address Proper Accounting for Imputed PI Effort as Voluntary
Committed Labor Cost Share

      Our review of Georgia Tech’s policies revealed that there was no policy to address the
OMB Clarification Memorandum. As such, Georgia Tech did not require estimating PI time
expended on sponsored awards for which no PI or other senior researcher time was requested.

       We were advised that the University does, at times, elect not to request PI or senior
researcher effort, although effort is incurred. We also inquired about sponsored projects for
which no PI effort was requested in the proposal budget, and were informed that such effort was
charged to State funds.

        The University does not appear to have given consideration to the requirement to
estimate and impute PI effort when no PI or senior researcher time has been included in the
proposal budget. Management noted that few awards would be subject to this requirement, and
our sample of employees funded by NSF did not include any proposals that omitted PI or senior
researcher effort. xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx.
Xxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxxx
xxxxxxxxxxxxxxxxxx. However, the absence of policies and procedures to properly account for
such a situation constitutes an internal control weakness.




                                                            
2
 OMB Memorandum M-01-06, dated January 5, 2001, Clarification of OMB A-21 Treatment of
Voluntary Uncommitted Cost Sharing and Tuition Remission Costs

                                                               15 
B. Georgia Tech’s Policies Do Not Acknowledge NSF’s Two-Ninths Rule

Guidance on the Two-Ninths Rule

        OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements
with Institutions of Higher Education, Hospitals, and Other Non-Profit Organization, requires
entities receiving Federal awards to establish and maintain internal controls that are designed to
reasonably ensure compliance with Federal laws, regulations, and program compliance. During
Fiscal Year 2007, NSF limited to two months the number of summer months that could be
funded by NSF. The relevant provision was contained in the National Science Foundation’s
Grants Policy Manual, Section 611.1.b.2, which read as follows:

        "Periods Outside the Academic Year. During the summer months or other
        periods not included in the period for which the base salary is paid, salary is to
        be paid at a monthly rate not in excess of the base salary divided by the number
        of months in the period for which the base salary is paid. NSF policy on funding
        of summer salaries (known as NSF's two-ninths rule) remains unchanged:
        proposal budgets submitted should not request, and NSF-approved budgets will
        not include, funding for an individual investigator which exceeds two-ninths of
        the academic year salary. This limit includes summer salary received from all
        NSF-funded grants."

       This rule has subsequently been revised to allow the two months of effort funded by NSF
to occur at any time during the calendar year. Nonetheless, NSF continues to limit funding for
academic personnel to two months per year.

Georgia Tech’s Policy Does Not Address NSF’s 2/9th Rule

        We noted that the University does not have a policy addressing the NSF’s two-ninths
rule. Instead, the University policy allows payment for an entire three month summer session
that may be allowed by other Federal agencies. However, by omitting the NSF’s two-ninths rule
from its policy statements, and thus omitting the limitation to two months annually of charges to
NSF awards, the risk that faculty, staff or both are unaware of these restrictions is heightened.
Further we found no evidence of a training program or other communication informing PIs of the
NSF funding restrictions. Lack of information about the NSF two month limitation reduces the
likelihood that reviews of Current and Pending Support forms will recognize and highlight
violations of the rule. While our sample did not disclose any over charges to NSF concerning the
two-ninths rule, should the University inadvertently claim three months of compensation, the
third month is subject to disallowance.

The Absence of this Policy Is the Result of an Affirmative Decision of the University

       We were informed that due to the broad spectrum of federal funding agencies working
with Georgia Tech, the University does not attempt to include in its policies every requirement or
prohibition that may be unique to a particular funding agency. This position fails to recognize


                                                16 
the fact that, by adopting policies that specifically allow three months of summer award charges,
and neglecting to state that three months of NSF award charges are not allowed, the University
has created an environment in which misunderstanding and misinterpretation could contribute to
noncompliance with NSF requirements.

Recommendations:

       We recommend that the NSF Director of the Division of Grants and Agreements and the
Director of the Division of Institution and Award Support, coordinate with the cognizant audit
agency, as needed, to require Georgia Tech to implement the following recommendations:

2.1    Establish written policies to include a methodology for the identification, estimation and
       allocation of voluntary committed labor cost share to a cost share account. The policies
       should provide guidance for identifying unreported PI committed effort, estimating the
       effort, calculating the related salary costs, and documenting the calculations.

       Georgia Tech Response

       The University stated they will develop a policy to require a minimum level of committed
       faculty (or senior researcher) effort on sponsored programs, paid or unpaid by the federal
       government. The committed effort, whether mandatory or voluntary, will be separately
       budgeted and accounted for by way of either the federally sponsored project account or a
       companion GIT cost sharing account. This new policy and the existing methodology GIT
       uses in its F&A rate calculations to compensate for any impact uncommitted PI effort
       would have on the organized research base, will eliminate the need to estimate and
       impute PI effort.

       Auditors’ Comments

       Georgia Tech’s response met the intent of the recommendation.

2.2    Establish a policy limiting charges to NSF sponsored projects to two months of the
       faculty member’s base institutional compensation in any calendar year.

       Georgia Tech Response

       The University concurred with the recommendation and stated that, during FY2009,
       Georgia Tech developed guidance limiting charges to NSF sponsored projects to two
       months of the faculty member’s base institutional compensation in any calendar year.

       Auditors’ Comments

       Georgia Tech’s response met the intent of the recommendation.




                                               17 
2.3   Incorporate the changes set forth in recommendations 2.1 to 2.2 into Georgia Tech’s
      effort reporting training and promptly communicate the changes to everyone working on
      sponsored projects.
      Georgia Tech Response

      The University concurred with the recommendation and stated they will incorporate all
      related changes into the Plan Confirmation System training and promptly communicate
      changes to employees working on sponsored projects.

      Auditors’ Comments

      Georgia Tech’s response met the intent of the recommendation.

                              ******************




                                            18 
                                                                                                           Appendix A
                                                                     Office af the Associate Vice Pn,vnst f o r ltescartfi
                                                                     Atlirrlta, Carrrrgia :30:337,-0420 I;.ii.A.
                                                                     r'iji:s; 4(%4.Xu4.4gI[)
                                                                     i:;x.\   4i)44+34.7i]{!:




Rex,                 t o L3Ilr\F?' r l i ~ t l ~Rcport
           Itc~pc-~nsc                           r     ol'thc Payroll Drstr~butictn
              Is>stcn?a l tile C;eorpi:1 I ~ ~ s t i tof'
                                                       ~ ~l"echrlolog>
                                                            tc




'l'he akti:chcti rtc,curlrc!li prositlcs oiir response related to ihc ;iucl~tlindrngs an(]
I * L ' C O I ~ ~ ~ L ' I I Cconrazned        . ~!he I2r;tli Report of'thc Audit of the Payroll Dislribi~tlon
                              ~ ~ ~ ~ < ~ : I111
Sqstitl-r?

w...<tjlj~rcciafe\;'our tirrx, i'ffort anti ope11ci:)mr~~unication
       a                                                         during the audit proccstj.             \fjc
I o c ) ~ fi)l-wrtl tc-I in~plementix~g
                                     co:-recrive aetior~sthat will strcr1g111i.nom kiffbrt Kcporting
sysIet17.
Fi~radingI: Inter'nai Controls Over Prospective FVorkload AlXocatiori Clianges atid I,altor Cost
't'ransfers

l:acil ( ieorgxa I ecll PI is respons11)lefor ei'fecrivel~overseclrq and managlng hl$"ner spnnssrcti Fru:i:cr.; hacc~tto
1: ~wnzrdctablcr~.tt.nllip017hlb her kno~tledgeol'tl~t.lielti of u ~ ~ t dand y hi.; 11er capahll~rlesf o co:~dnctthc [a-ogccts
in an effic!ent :~r,ilproduclite tnannrr r l l l i ~ ~ ~v\c
                                                         i gbciicvc
                                                            !~            t' s and atithonzzd dcpartmcnral finhne~al
                                                                     rhal X
izlan<!gcrsk ' l i ~,~trfIicic~~i
                     '         kriouledp:: and tra1131ngIl~a'rallo\vs them to ~ n ~ t l aproper
                                                                                         lc     prospective t~mrkload
dllocatton changes and llrllely cost tranutets. each employec palct from a spc~nsuscdproject also kas certain
lut rm117cd ~ c s ~ o ~ s L ~ ~ I I ~ ~ z ~

t'icorgia ?'eel: Plan Confirmatior; Sysxrn writteri procedures: tra~ningma:cria!s; and reports rrcojil~izcthe
individual eu~l?lrtyc;e.e's      rcsp~~~sibility  hr reviewi~lg,confiminy and initiating correcrior~slo :heir workload
allocations based on l.~t?wtheir trrnc was spent or is currently planned. 'I'raining xxaterials a x proviiied i o each
covcl-rcJ einpioyet. alzcf a signed "Ach~owiledge~~~ent             1:or.m'' is also required ot'each ernployce to eizsiirc and
ttoci.~rncnr:lic:r u~iders~anc\it;g       of tlicsc rcspclr1uihiii1ic. IZlcclrctnic Wtu-ltloaci .4ssig11rncntFoln?.i (EWh1:s) arc
prct~iilccii::cj~'~!:!yif, :?.I[ ~ o v c r c dc~nl-rioyecsto repor-: pla17ned arlti jncilrred efl'ort dri;tribirlions. 'I'his mnnrtlly
r.t'pc!i.: :iisc! incl~rrfcsa ~.rmii~di.r   of their indivjdual respur:sibilitic~ a11d required aoticriz steps iiild~rthe Xqatn
i ' c > n l i l - n i i5.ysl.em 1:r-occdiirss, ,4cldiiionally, a:inual Eflorl C.'ertii'!cat:oi\ reports (ASKS) are prov;c*ieti2nd arc to
be ccrtificci. i'ir-st and !k>rernos\.by each individual employee. 'T'11ese iirn*!?alizedemployee-level rcspons~i~ilirics
anil rcporti; :cpresc!?l. ndditional it?rcrnal conrrols nlxl work togcthcr to c4emonst~i1fe              apprttprrat:. scgrcgaiic!n of
iiu:iesrcspvni;it?iIities and proper doctimenration. yeview, and cet.tii?cation oi'salary chargcs.

Xn icspon,? to the rccor;.in1e:7datms fi): I:ind;~yI. C;rorgla 'i'ech will agree to impltn~c~;t
                                                                                             rhc: kjllourt~gcctrrccti\c
ac~~ct:>l

     i . l t.ipdatc.policies to pmt;ldc thai all Iabor cast transfers to sponsored pso>jcctsrecluix written jtisii ticnlron at
           ;in appropriate ievcl of deiail. 'Elis ir~funltlationwill be reported to the Cjffice oi'(:irants and (:an~:.acts
            .\.
           ; ~,ounti1:g and i~ppropriatelyt-noniloreci. Written jilstificatictn at an app!-opriatc Icvc.! <tfderailaliii
              P,


           ac?ditivnalcc.nit.ai t.r.vie~.iacd acrihorization approvals tirc cunently rciluireif for all jtrjt~ryear cost
           ~rarisfe~i;anti crtsi. rransft'rs rtt spon;;oscct PI-ttjcctsbcyond 12(! days or t,he origi~xilexpcnsi: posting.

           I':nhasisc. !':le montl~lyrlcctror~icworkload assignrnenr reporting systcrn jliWAI:) by itlzludirig ;L
           xlot15catiorircgardiilg chaiiges matie to ~vorklctadallocations since the 1 s t report and apprspriatc :ic!ii,xl
           s l r p s whrrr repcjrted changes asr no.; iiriliitteci promptly by departmenral finance oilice!-s.

           Dci:ciop a web-bastxi traini119progsm with testing and coaf\rrnatian capabilifies to ensue ~ilartrai11i113
           parlicr;??:.;ni?; ul.idt.r.sra:.ndd . 1 Plarl
                                                   ~     t.:o~lrirr~larior:
                                                                         Sysle~xl;ZIIL.~
                                                                                      ackr~osvlcdgetf~eirindividual r~es~~i~~~si~)jlitic"s
           fijr rit:~i:.vqi;?*g.co~.rfinr.lngor irlitiating tirt~clycl~angesto wc.trkload ailocations, inclucting iiitul~'j?esii.,d
           allt,cat.!iz:~:;.2't:is on-line training wili bb: oif'crclj. in aildiiion to Plan Canfii-matian Systci~lRooklets (,~t;i~ki
           Ai:knciwiedgen;ent Forms) that are now usecl.

     1.2   ~:IISC~ ~ C I!~thorcost
                 :i~iit                                  ~ ~ j , expiaizaiioni:, are rcpot-icd to Grants and c.'ontrncis i2cco1.mtrng
                                         t r i t ~ l ~ fincI~l<iing
                   are :ui,groprii:,tcXy monitored.

           I)c.vclop procedures and cenrl-:~l:tecfrrporl:l~gsy\tems to pertnit Imcl:; PI re\leg anti
           approsai conl'trrn~tioxlof' all cljargcs po3~t.dto 111slier spctmctre~iprorc.t.ca.

     I 3 i:-r~l?n!~cc cx~stulgovers~plltplnccdurea an&or establish addltio:?al ~serslglrltprc~~ctjure~  for tlie periocllz
         t e i ~ c u1)t'1tep:ir:1t7e1?talcornp1r;~ncetz~thlicorgia 1ech and I)MU reqtt!retr+ienlhregaidi~~g
                                                                                                          the z2anagcr;irxlz
         om'X etterel ;PA ifriij
Finding 1: Internal Controls Over k"r-ospectiveW'orklead Alfocatiou Ghatlges and Labor Cost
Transfers (C:oratinued)
   1 .LI X.,p:t'ite gu:dance on labor ~ o sttr v ~ s f e requests
                                                         r        to ensiire consistency     3th;n fjeorgxa I'ech t>ol~<ic$
                                                                                                                         rind
         wltl~OMtlB ~~qtlrrrments.

   I .5 IPe~rcv,maunott.er requrrementa needed         tct   eft'eccttely oversee cost transfer justif cat:(?~:s, related fiiIlo%-
        up p ~ { f ~ c ~ band
                           e s .overdl cumpllance.

   1 .G Inctxporatc ail related change:; into thc Pla11C::onfirmaiion System training anti pr017~r)tly~u~?:m~inic~t!c
        c t ~ n n g c s u~171pIoyi'cs
                          ~         workitlg on y ~ ~ t t ~ ojrxeodj e ~ ! ~ .


Fixlding 2: 1301iciesand Yroccriures to Addi-css Certain Federal and ?;SF Grant Rcquirexncnts



    2.1 C;corgia 'l'cet.1 \i:iil de~i.lopa policy to rcquiri: a n ~ i n i r n u It:vcl
                                                                                t ~ ~ of cornmitaed facu!~y(or senior
        r.cscarchcr) efixt on sponsorccl programs, paid or ui~paidby the fcdcral govr.rnr.ment. 'i'he ct)rniailisd




    2.2 &iring I T 2009, Georgia 'I'ech ricrclopcd g.uidancc lirnitirxg c11;u-ges to NSI:spcr;~w:)reciprojcc-ts to lwo
        n;ctnlhs ttl':lic ihctil.;y member's base insti:utiocai cot~~pensation
                                                                            in any cnlcndar year.

    2,.; 11xcr~r;~oraic
                      all relnicd d7angc.s i ti!(! rhi: I'ja;~C'onfirl~laliol~
                                                                             Sys!:.nl training and promplly ~'o~~;tnlxnicale
         changes ti) en~ployecs'zurkirzg o : ~sponsored pn?jects.
